    Management Advisory Report



   Single Audit of the State of
Arizona for the Fiscal Year Ended
          June 30, 2011




       A-77-13-00012 | June 2013
Single Audit of the State of Arizona for the Fiscal Year Ended
June 30, 2011
A-77-13-00012
June 2013                                                                Office of Audit Report Summary

Objective                                 Finding

To report internal control weaknesses,    The single audit reported the State of Arizona charged information
noncompliance issues, and                 technology project costs based on a percentage of each agency’s
unallowable costs identified in the       total payroll expenditures, including those paid with Federal
single audit to the Social Security       money. However, these costs should have been charged in
Administration (SSA) for resolution       accordance with the relative benefits received by each agency
action.                                   instead of as a percentage of payroll costs.

Background                                Recommendation

The Arizona Auditor General               The single audit identified multiple Federal programs, including
conducted the single audit of the State   SSA, responsible for resolving this finding. However, the
of Arizona. SSA is responsible for        Department of Health and Human Services will resolve this finding
resolving single audit findings related   on behalf of the Federal Government. Therefore, we are bringing
to its Disability Insurance program.      this matter to your attention, but are not making a recommendation.
The Department of Economic Security
is the Arizona Disability
Determination Services
Administration’s parent agency.
MEMORANDUM
Date:      June 10, 2013                                                          Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Arizona for the Fiscal Year Ended June 30, 2011 (A-77-13-00012)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Arizona for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Arizona Auditor General conducted the audit. The results of the desk review conducted by
           the Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the internal
           control and compliance work performed by the Arizona Auditor General and the reviews
           performed by HHS. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Arizona Disability Determination Services Administration (DDSA) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal regulations. The
           DDSA is reimbursed for 100 percent of allowable costs. The Department of Economic Security
           is the Arizona DDSA’s parent agency.

           The single audit reported the State of Arizona charged information technology project costs
           based on a percentage of each agency’s total payroll expenditures, including those paid with
           Federal money. However, these costs should have been charged in accordance with the relative




           1
            Single Audit, State of Arizona Year Ended June 30, 2011,
           http://www.azauditor.gov/Reports/State_Agencies/StateWideReports/Financial/SingleAudit/SA_6_30_11/State_of_
           AZ_6_30_11_SA.pdf (last viewed May 15, 2013).
Page 2 - Gary S. Hatcher

benefits received by each agency instead of as a percentage of payroll costs. 2 The corrective
action plan indicated the State is working with the HHS Division of Cost Allocation (DCA) for
the payment and appropriate resolution of the questioned costs. Further, the State will continue
to work with DCA to find a resolution to properly charge Federal programs for these costs.

The single audit identified multiple Federal programs, including SSA, responsible for resolving
this finding. However, HHS will resolve this finding on behalf of the Federal Government.
Therefore, we are bringing this matter to your attention, but are not making a recommendation.

The single audit also disclosed the State legislature mandated transfers of fund balances,
including approximately $2.5 million Federal money, from various State agencies to the State of
Arizona’s General Fund to provide support and maintenance for the agencies of the State.
However, the transfers were not based on the relative benefits received. 3 This finding may
impact DDSA’s operations, although it was not specifically identified to SSA. I am bringing this
matter to your attention as it represents a potentially serious service delivery and financial
control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                               Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. finding 11-102.
3
    Id. finding 11-103.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
